             Offices of
         Inspector General


           Department of the Treasury
      Federal Deposit Insurance Corporation
Board of Governors of the Federal Reserve System



      Status of the Transfer of
Office of Thrift Supervision Functions


                   OIG-12-075
                   AUD-12-015
                 FRB OIG 2012-09


                September 26, 2012
Contents


Audit Report

  Background ................................................................................................ 2

  Results of the Joint Review .......................................................................... 4

      Procedures and Safeguards Were in Place and Maintained to Ensure that
      Transferred OTS Employees Were Not Unfairly Disadvantaged ..................... 5

      OTS Property Transferred to FDIC, FRB, and OCC as Outlined in the Plan ...... 10

      Other Matter Identified in Prior Reports...................................................... 10

  Management Response ................................................................................ 11

Appendices

  Appendix     1:     Objective, Scope, and Methodology ........................................             12
  Appendix     2:     FRB Management Comments .................................................              15
  Appendix     3:     OCC Management Comments ................................................               16
  Appendix     4:     Major Contributors to This Report ...........................................          17
  Appendix     5:     Report Distribution ................................................................   18

Abbreviations

  FDIC                     Federal Deposit Insurance Corporation
  FRB                      Board of Governors of the Federal Reserve System
  OCC                      Office of the Comptroller of the Currency
  OIG                      Office of Inspector General
  OTS                      Office of Thrift Supervision
  PMR                      Performance Management and Recognition
  UCE                      Uniform Commission Examination




                      Status of the Transfer of Office of Thrift Supervision Functions                   Page i
         This Page Intentionally Left Blank.




Status of the Transfer of Office of Thrift Supervision Functions   Page ii
                    Offices of Inspector General

                      September 26, 2012

                      Ben S. Bernanke, Chairman
                      Board of Governors of the Federal Reserve System

                      Martin J. Gruenberg, Acting Chairman
                      Federal Deposit Insurance Corporation

                      Thomas J. Curry, Comptroller of the Currency
                      Office of the Comptroller of the Currency

                      This report presents the results of our offices’ fourth joint review of
                      the transfer, pursuant to Title III of the Dodd-Frank Wall Street
                      Reform and Consumer Protection Act (Dodd-Frank Act or the Act),
                      of the functions, employees, funds, and property of the former
                      Office of Thrift Supervision (OTS) to the Board of Governors of the
                      Federal Reserve System (FRB), the Federal Deposit Insurance
                      Corporation (FDIC), and the Office of the Comptroller of the
                      Currency (OCC). In accordance with Title III of the Act, the transfer
                      occurred in July 2011.

                      As discussed below under the background section, our joint
                      reviews are mandated by Section 327 of Title III of the Act. Our
                      first joint review1 determined whether the Joint Implementation
                      Plan (Plan) for the transfer prepared by FRB, FDIC, OCC, and OTS
                      conformed to relevant Title III provisions. After the initial joint
                      review of the Plan, Section 327 requires that every 6 months we
                      jointly provide a written report on the status of the implementation
                      of the Plan to FRB, FDIC, and OCC, with a copy to the Congress.



1
 Department of the Treasury (Treasury) Office of Inspector General (OIG), FRB OIG, and FDIC OIG,
Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions,
OIG-11-064 (Treasury OIG); FRB OIG 2011-02 (FRB OIG); EVAL-11-002 (FDIC OIG) (Mar. 28, 2011).


                      Status of the Transfer of Office of Thrift Supervision Functions         Page 1
                      We issued the first2 and second3 reports under this requirement in
                      September 2011 and March 2012, respectively.

                      The objective of our current review was to determine and report on
                      the status of the implementation of the Plan. To accomplish our
                      objective, we reviewed the actions FRB, FDIC, and OCC have taken
                      to implement the Plan since our last report, issued on March 21,
                      2012, through August 23, 2012. Our work focused on the items
                      related to the Plan that were ongoing or were not yet required to
                      be completed as identified in our last report. We also performed
                      tests to determine compliance with Title III provisions related to
                      transferred OTS employees and property. As part of our work, we
                      interviewed officials from FRB, FDIC, and OCC, and reviewed
                      relevant documentation. We conducted our fieldwork from April
                      2012 through August 2012. Appendix 1 contains a detailed
                      description of our objective, scope, and methodology.

                      In brief, we concluded that procedures and safeguards are in place
                      as outlined in the Plan to ensure that transferred employees are not
                      unfairly disadvantaged; and that the actions in the Plan that were
                      necessary to transfer OTS property to OCC were implemented.
                      However, as discussed below, we identified certain items related to
                      additional certification for certain transferred OTS examiners and
                      collection of supervisory assessments by FRB are still ongoing.


Background
                      Title III of the Dodd-Frank Act sets forth provisions to address
                      problems and concerns in the multiple agency financial regulatory
                      system by transferring OTS’s powers and authorities to FRB, FDIC,
                      and OCC on July 21, 2011 (the “transfer date”) and abolishing
                      OTS. All OTS functions related to federal savings associations, all
                      OTS rulemaking authority for federal and state savings



2
  Treasury OIG, FRB OIG, and FDIC OIG, Status of the Transfer      of Office of Thrift Supervision
Functions, OIG-11-109 (Treasury OIG); FRB OIG 2011-04 (FRB         OIG); EVAL-11-005 (FDIC OIG)
(Sept. 28, 2011).
3
  Treasury OIG, FRB OIG, and FDIC OIG, Status of the Transfer      of Office of Thrift Supervision
Functions, OIG-12-046 (Treasury OIG); FRB OIG 2012-01 (FRB         OIG); EVAL-12-004 (FDIC OIG)
(Mar. 21, 2012).


                      Status of the Transfer of Office of Thrift Supervision Functions               Page 2
                       associations,4 and the majority of OTS employees transferred to
                       OCC; OTS’s supervisory responsibility for state-chartered savings
                       associations and OTS employees to support these responsibilities
                       transferred to FDIC;5 and OTS’s authority for consolidated
                       supervision of savings and loan holding companies and their non-
                       depository subsidiaries transferred to FRB. No OTS employees were
                       required to be transferred to FRB.

                       Section 327(a) of Title III of the Act required FRB, FDIC, OCC, and
                       OTS to jointly submit a plan within 180 days of enactment to the
                       Congress and the Inspectors General of FRB, FDIC, and Treasury
                       detailing the steps necessary to implement the provisions of
                       Sections 301 through 326. The Inspectors General and the
                       Congress received the Plan fulfilling this requirement on
                       January 25, 2011.

                       Section 327(b) of Title III of the Act required that within 60 days
                       of receiving the Plan, the Inspectors General of FRB, FDIC, and
                       Treasury jointly provide a written report to FRB, FDIC, OCC, and
                       OTS, with copies to the Congress, that detailed whether the Plan
                       conformed to the requisite provisions and include any additional
                       recommendations for an orderly and effective process. The
                       Inspectors General jointly issued that report, Review of the Joint
                       Implementation Plan for the Transfer of Office of Thrift Supervision
                       Functions, on March 28, 2011, fulfilling this requirement. Based on
                       that review, we concluded that the Plan generally conformed to the
                       relevant provisions of Title III. We noted, however, that the Plan
                       did not address the prohibition in Title III against the involuntary
                       separation or the involuntary reassignment of a transferred OTS
                       employee outside the employee’s locality pay area for 30 months
                       (except under certain circumstances). In response, the agencies
                       amended the Plan in April 2011.

                       Section 327(c) of Title III of the Act requires that, within 6 months
                       of the Congress receiving the report, the Inspectors General of
                       FRB, FDIC, and Treasury must jointly provide a written report on
                       the status of the implementation of the Plan to FRB, FDIC, and

4
  In some instances, FDIC, as the federal banking agency for state savings associations, is authorized by
statute to issue regulations pertaining to state savings associations.
5
  FDIC accepted the transfer of other OTS employees to fill actual and, to a limited extent, other
anticipated vacancies.


                       Status of the Transfer of Office of Thrift Supervision Functions            Page 3
              OCC, with a copy to the Congress. Further, the Inspectors General
              of FRB, FDIC, and Treasury must jointly provide such a written
              report every 6 months thereafter until all aspects of the Plan have
              been implemented. The Inspectors General issued the first and
              second joint reviews on September 28, 2011, and March 21,
              2012, respectively, in accordance with this requirement.

              In the September 2011 report, we concluded that FRB, FDIC, OCC,
              and OTS had substantially implemented the actions in the Plan that
              were necessary to transfer OTS functions, employees, funds, and
              property to FRB, FDIC, and OCC, as required. However, we
              identified certain aspects of the Plan that were ongoing or were not
              yet required to be completed as provided in Title III of the Act. In
              the March 2012 report, we concluded that FRB, FDIC, OCC, and
              OTS implemented the actions in the Plan that were necessary to
              transfer OTS functions, employees, and funds to FRB, FDIC, and
              OCC, as appropriate. We also concluded that all OTS property was
              transferred to FRB, FDIC, and OCC; and procedures and safeguards
              were in place at FDIC and OCC as outlined in the Plan to ensure
              that transferred employees are not unfairly disadvantaged.
              However, as discussed below, we identified certain items related to
              the procedures and safeguards in place to ensure that transferred
              employees are not unfairly disadvantaged, the transfer of property,
              and the collection of supervisory assessments by FRB that were
              ongoing or were not yet required to be completed as provided in
              Title III of the Act.

              We also provided updates on other matters identified in the
              previous reports. We reported that OCC funded an $86.2 million
              shortfall in the Financial Institutions Retirement Fund, a separate
              retirement system in which 460 OTS retirees and 375 former OTS
              employees participated. Additionally, we noted that the auditor of
              OTS’s financial statements covering the period October 1, 2010, to
              July 20, 2011, rendered an unqualified or clean opinion.


Results of the Joint Review
              We concluded that procedures and safeguards as outlined in the
              Plan to ensure that transferred employees are not unfairly
              disadvantaged were in place and maintained during this 6-month
              reporting period; and the actions in the Plan that were necessary to


              Status of the Transfer of Office of Thrift Supervision Functions   Page 4
                       transfer OTS property to OCC were implemented. However, we
                       identified certain items related to the Plan that are still ongoing.

                       Procedures and Safeguards Were in Place and Maintained to Ensure
                       that Transferred OTS Employees Were Not Unfairly Disadvantaged

                       Based on review of documentation and interviews with FDIC and
                       OCC officials, we concluded that FDIC and OCC had procedures
                       and safeguards in place as outlined in the Plan to ensure that
                       transferred OTS employees were not unfairly disadvantaged.

                       Protection and Continuation of Benefits Other than Retirement

                       Title III, Section 322, of the Act, provides that each transferred
                       OTS employee may remain in OTS benefit programs (other than a
                       retirement benefit program) for the first year after the transfer date.
                       After the first year (July 21, 2012), transferred OTS employees
                       were to transition to FDIC or OCC benefit programs. According to
                       FDIC officials, all former OTS employees transferred to an FDIC
                       non-retirement benefit program during FDIC’s special enrollment
                       process, and did so with no problems. Based on a sample of 115
                       former OTS employees who transferred to an OCC non-retirement
                       benefit program, we determined that each transferred OTS
                       employee transitioned without issue and in accordance with Title III
                       of the Act.

                       Additional Certification for Certain Transferred OTS Examiners

                       In our prior reports, we identified that former OTS officials and
                       employees had expressed concerns related to OCC plans for
                       requiring additional certification for certain transferred OTS
                       examiners6 before they would be able to supervise national bank
                       examinations.7 We reported that OCC had contracted with a
                       consultant who identified differences between the OTS examiner
                       accreditation process and the OCC Uniform Commission
                       Examination (UCE) process. We also reported that the consultant
                       was validating the UCE. In this regard, the consultant was

6
  OTS examiners who had earned a National Bank Examiner commission during previous employment
with the OCC were not subject to this requirement.
7
  FDIC did not require additional certification for transferred OTS examiners before they were able to
supervise FDIC-regulated bank examinations.


                       Status of the Transfer of Office of Thrift Supervision Functions            Page 5
                      analyzing the duties of OCC’s recently revised National Bank
                      Examiner position8 to determine whether necessary changes were
                      incorporated in the UCE. As an update, the consultant in
                      collaboration with OCC validated the revised UCE on April 12,
                      2012.

                      Additionally, we reported that OCC contracted with the same
                      consultant in October 2011 to assist in developing an alternative
                      qualification process for certain OTS examiners to acquire the
                      National Bank Examiner commission without taking the full UCE;
                      one that would take the examiner’s experience into consideration.
                      This alternative process was to also include a process to certify
                      existing National Bank Examiners as qualified to lead examinations
                      of federal savings associations. In our previous report, we noted
                      that the consultant’s report was due June 30, 2012; however,
                      OCC extended the due date to September 30, 2012. According to
                      an OCC official, the alternative qualification process and the
                      revised UCE will be rolled out in January 2013. We plan to
                      determine the status of OCC efforts to implement the revised UCE
                      and the alternative qualification process in future reviews of the
                      transfer of OTS functions.

                      OCC’s and FDIC’s Study of Safeguards and Procedures to Ensure
                      Transferred OTS Employees Were Not Unfairly Disadvantaged

                      Section 322(k), Title III of the Act required OCC and FDIC to
                      prepare a report to the Congress on the study of safeguards and
                      procedures performed by OCC and FDIC to ensure transferred OTS
                      employees are not unfairly disadvantaged. OCC and FDIC
                      completed the studies and submitted separate reports to Congress
                      by the due date, July 20, 2012. In both studies, FDIC and OCC
                      detailed the position assignments of transferred employees, the
                      procedures and safeguards adopted pursuant to Section 322(k)(3)
                      of Title III, and determined that the requirements of section 322(k)
                      of Title III were met.

                      The following is a summary of FDIC’s and OCC’s report to
                      Congress, respectively.


8
 National Bank Examiners certified under the new UCE are qualified to supervise both national banks
and thrifts.


                      Status of the Transfer of Office of Thrift Supervision Functions          Page 6
                            FDIC

                            The FDIC report described its actions on position placements
                            including the (1) position placement notification for all OTS
                            transferees; (2) directed geographic reassignments of 11 former
                            OTS employees; (3) key decisions made and actions taken to
                            eliminate possible inequities by transferring former OTS
                            employees from excepted service9 appointments based on the
                            OTS’s Schedule A hiring authority to FDIC’s competitive
                            service;10 and (4) pay protection of the former OTS employees
                            and their incorporation into FDIC’s compensation program on
                            the transfer date. In addition, the report documented that FDIC
                            conducted extensive systems testing to ensure that, as of the
                            transfer date, the 95 former OTS employees were transferred to
                            FDIC and paid properly. This report also noted the results of an
                            FDIC OIG-conducted survey of former OTS employees on their
                            transfer experience were positive, as noted in our prior report.11
                            The FDIC report stated that the positive results were because of
                            the extensive preparation for the transfer on the parts of all
                            agencies involved, as well as by the preparation and welcoming
                            attitude on the part of FDIC and its employees. Other than
                            actions pertaining to the transfer of benefits that were noted to
                            be performed subsequent to the date of the report, the study
                            outlined FDIC’s compliance with Title III of the Act.

                            OCC

                            The OCC report described its actions on position placements
                            including (1) key decisions made by OCC to resolve differences
                            in the respective pay plans between OCC and OTS; (2) pay
                            protection of all former OTS employees and the incorporation of

9
  Excepted service positions are not subject to the appointment, pay, and classification rules of the
competitive service. Excepted service consists of those civil service positions that are not in the
competitive service or the Senior Executive Service.
10
   Competitive service positions are subject to the civil service laws passed by Congress. Competitive
service positions includes all civil service positions in the executive branch, except (1) positions that are
specifically excepted from the competitive service by or under statute; (2) positions to which
appointments are made by nomination for confirmation by the Senate, unless the Senate otherwise
directs; and (3) positions in the Senior Executive Service.
11
   Treasury OIG, FRB OIG, and FDIC OIG, Status of the Transfer of Office of Thrift Supervision
Functions, OIG 12-046 (Treasury OIG); FRB OIG 2012-01 (FRB OIG); EVAL-12-004 (FDIC OIG)
(Mar. 21, 2012).


                        Status of the Transfer of Office of Thrift Supervision Functions               Page 7
                           OTS into OCC’s compensation program on the transfer date;
                           (3) position placement notification for all OTS transferees; and
                           (4) directed geographic reassignments of nine former OTS
                           employees. In addition, the report documented that OCC
                           (1) conducted extensive systems testing to ensure that, as of
                           the transfer date, all 668 former OTS employees were
                           transferred and paid properly and (2) a consultant contracted by
                           OCC performed a post-integration risk assessment and
                           concluded that OCC acted appropriately and made sound
                           decisions regarding pay plan comparability and position
                           placement decisions. Furthermore, the report described the next
                           steps OCC planned to perform to ensure that its future culture
                           supported all team members in performing their duties. To
                           accomplish these next steps, OCC engaged a human capital
                           consulting firm to administer a culture alignment assessment.
                           This assessment is to identify differences and similarities
                           between the pre-integration OCC and former OTS cultures and
                           identify opportunities for creating a shared culture.

                       The FDIC and OCC report conclusions are consistent with our
                       reviews to date of the transfer of OTS functions.

                       FDIC and OCC Performance Management Processes

                       Former OTS employees who transferred to FDIC participated in the
                       2011 FDIC Performance Management and Recognition (PMR)
                       Program. The 2011 FDIC PMR was a year-end evaluation of 2011
                       calendar-year performance. To accommodate former OTS
                       employees transferring in July into the performance cycle, former
                       OTS supervisors provided a close-out performance appraisal to
                       FDIC that documented performance and accomplishments of these
                       employees through their dates of transfer. FDIC management
                       agreed to consider this input, as appropriate, in completing
                       appraisals of 2011 performance for transferred OTS employees.

                       We reviewed 84 offer letters to former OTS employees12 and
                       confirmed that each letter contained a description of the process
                       by which their 2011 performance, including OTS close-out

12
   The 11 employees that transferred directly to FDIC with their functions (thrift reporting and
administrative law judge) received notices of position assignment from OCC rather than offer letters
from FDIC.


                       Status of the Transfer of Office of Thrift Supervision Functions           Page 8
appraisal, would be considered by FDIC management. In January
2012, affected FDIC managers received guidance for incorporating
the OTS close-out appraisals into the 2011 PMRs for their direct
report(s). Further, affected managers were provided a copy of the
OTS close-out appraisals for their direct report(s).

In addition, we reviewed 89 FDIC PMR appraisals of former OTS
employees for 2011 and found that 67, or 75 percent, contained
comments that indicated that the final OTS close-out appraisal was
factored into the appraisals. Another 7 PMR appraisals, or 8
percent, documented that the employee had transferred from OTS
to FDIC but did not provide any further narrative assessment of
their close-out OTS performance. The remaining 15 PMR
appraisals, or 17 percent, included no mention of the employees’
prior OTS service.

Furthermore, FDIC officials noted that no transferred OTS
employee filed a grievance related to their 2011 FDIC PMR.
Overall, we found that FDIC generally fulfilled its 2011 PMR
process commitments to transferred OTS staff, and those staff
were not unfairly disadvantaged during the 2011 PMR process.

With respect to OCC, as noted above, OCC contracted with a
consultant to perform an OTS/OCC post-integration risk
assessment. We reviewed the consultant’s post-integration risk
assessment dated August 19, 2011, relating to the performance
management process. According to the assessment, former OTS
managers performed close-out ratings for former OTS employees
before the employees transferred to OCC. In addition, according to
the assessment, former OTS employees were provided guidance
for closing out the 2011 performance management cycle and were
given information on the performance management activities that
would transpire after the transfer date. The assessment further
stated that OTS transferees would be in an interim transition period
for 41 days, from July 21 to September 30, 2011, to allow
transferred OTS employees time to get acclimated to the OCC
performance management system. According an OCC official, OTS
transferees were placed on new performance plans and started the
OCC fiscal year 2012 performance management cycle on
October 1, 2011.




Status of the Transfer of Office of Thrift Supervision Functions   Page 9
OTS Property Transferred to FDIC, FRB, and OCC as Outlined in
the Plan

As required by Title III of the Act, all OTS property was transferred
to OCC within 90 days after the transfer date (October 19, 2011).
As noted in our March 2012 report, OCC was nearing completion
of entering all OTS accountable property into its inventory system
as required by the Plan. As an update, an OCC official told us that
OCC completed entering all former OTS accountable property into
its inventory system on August 16, 2012. We sampled OCC’s
inventory list to determine whether the former OTS property items
were recorded in the inventory list. No exceptions were noted for
the sampled items.

As noted in our prior report, no former OTS assets, information
technology systems, equipment, or other infra-structure were
transferred to FDIC or FRB.

Other Matter Identified in Prior Reports

FRB Supervisory Assessments

As noted in our prior reports, for savings and loan holding
companies and bank holding companies with assets of $50 billion
or more, and nonbank financial companies that FRB is required to
supervise pursuant to the Dodd-Frank Act, FRB is to collect
assessments, fees, or other charges equal to the expenses FRB
estimates are necessary or appropriate to carry out its supervisory
and regulatory responsibilities. To satisfy this requirement, a notice
of proposed rulemaking for the assessments, fees, and other
charges remains under review and is expected to be available for
public comment in the fourth quarter of 2012. The collection of
assessments, fees, and other charges was anticipated to begin
later this year, but is now planned to begin in early 2013.




Status of the Transfer of Office of Thrift Supervision Functions   Page 10
Management Response
                    We provided a draft of this report to FRB, FDIC, and OCC. We
                    received written responses from FRB and OCC and informal
                    comments from FDIC.

                    FRB stated in its written response that it agrees with the
                    conclusions regarding the assessments, fees, and other charges
                    required pursuant to the Dodd-Frank Act. FDIC agreed with the
                    conclusions contained in the report that FDIC has implemented the
                    actions required to date in the Plan. OCC stated in its written
                    response that it agrees with the conclusions in our report.

                    FRB’s and OCC’s written responses are included in this report as
                    appendices 2 and 3, respectively.

                                                      *******

                    We appreciate the courtesies and cooperation provided to our
                    staffs during the audit. If you wish to discuss the report, you may
                    contact Marla A. Freedman, Assistant Inspector General for Audit,
                    Treasury OIG, at (202) 927-5400; E. Marshall Gentry, Assistant
                    Inspector General for Evaluations, FDIC OIG, at (703) 562-6378; or
                    Anthony J. Castaldo, Associate Inspector General for Inspections
                    and Evaluations, FRB OIG, at (202) 973-5024. Major contributors
                    to this report are listed in appendix 4.


/s/                             /s/                                       /s/

Eric M. Thorson                 Jon T. Rymer                             Mark Bialek
Inspector General               Inspector General                        Inspector General
Department of the               Federal Deposit Insurance                Board of Governors of the
Treasury                        Corporation                              Federal Reserve System




                    Status of the Transfer of Office of Thrift Supervision Functions          Page 11
Appendix 1
Objective, Scope, and Methodology




As required by Title III, Transfer of Powers to the Comptroller of
the Currency, the Corporation, and the Board of Governors, of the
Dodd-Frank Wall Street Reform and Consumer Protection Act
(Dodd-Frank Act), the Board of Governors of the Federal Reserve
System (FRB), the Federal Deposit Insurance Corporation (FDIC),
the Office of the Comptroller of the Currency (OCC), and the Office
of Thrift Supervision (OTS) prepared a Joint Implementation Plan
(Plan) to accomplish the transfer of functions, employees, property,
and funds of OTS as well as implement other provisions of Title III.
We conducted this joint review to fulfill our requirement under
Section 327(c) of Title III. This section requires the Inspectors
General of FRB, FDIC, and the Department of the Treasury
(Treasury) to provide a written report on the status of the
implementation of the Plan every 6 months until all aspects of the
Plan are implemented. The period covered by our audit is
March 21, 2012, to August 23, 2012.

To accomplish this requirement, we performed the following work:

   We reviewed the actions FRB, FDIC, and OCC have taken to
    implement the Plan.

For FRB

   We interviewed a Senior Associate Director and senior
    management staff from the Division of Banking Supervision and
    Regulation and the Chief Financial Officer and senior
    management staff from the Management Division.
   We reviewed relevant FRB documentation pertaining to
    supervisory assessments.

For FDIC

   We interviewed officials involved in implementing the Plan,
    including the Deputy Director, Corporate Planning and
    Performance Management, Division of Finance; the Deputy
    Director for Human Resources, Division of Administration; and
    additional FDIC staff from the Division of Administration.
   We obtained FDIC documentation of the Thrift Reporting
    Staffing and Logistics working group activities from January
    2012 until its final meeting on May 17, 2012.


Status of the Transfer of Office of Thrift Supervision Functions   Page 12
Appendix 1
Objective, Scope, and Methodology




   We reviewed the FDIC study titled Report to Congress Pursuant
    to Section 322(k)(4) of the Dodd-Frank Act on the Transfer of
    the Employees of the Office of Thrift Supervision
   We reviewed FDIC communications related to the special open
    enrollment season for certain benefits to determine whether
    these communications were sent to all appropriate staff.
   We reviewed 84 of 95 offer letters sent to former OTS
    employees that transferred to FDIC to determine whether the
    offer letters indicated how the FDIC 2011 Performance
    Management and Recognition (PMR) Program would incorporate
    their close-out OTS performance evaluation.
   We reviewed 88 of 91 FDIC 2011 PMRs to determine whether
    the close-out OTS performance evaluation was included in the
    FDIC 2011 PMR.

For OCC

   We interviewed the Deputy Comptroller for Human Resource;
    Program Analyst, Management Services; and the Senior Advisor
    for Examiner Workforce Planning for Midsize Community Bank
    Supervision.
   We reviewed relevant OCC documentation, such as the final
    report of the consultant hired by OCC to validate the Uniform
    Commission Examination; the OCC study titled Report to
    Congress Pursuant to Section 322(k)(4) of the Dodd-Frank Act
    on the Transfer of the Employees of the Office of Thrift
    Supervision; the results of a culture survey prepared by the
    human capital consulting firm hired by OCC to administer a
    culture alignment assessment; and the final report of the
    consultant hired by OCC to perform a post-integration risk
    assessment.
   We reviewed OCC communications to former OTS employees
    related to the special open enrollment season for certain
    benefits.
   We applied statistical sampling to select a sample of 115 of the
    563 employees who transferred to OCC. We reviewed relevant
    documentation for each employee to determine whether each
    transferred OTS employee transitioned into OCC’s benefit
    programs in accordance with Title III of the Dodd-Frank Act. To
    determine our sample size, we used 90 percent confidence level




Status of the Transfer of Office of Thrift Supervision Functions   Page 13
Appendix 1
Objective, Scope, and Methodology




    with 3 percent sample precision and an expected error rate of
    5 percent.
   We applied statistical sampling to select a sample of 143 of the
    13,227 property transferred to OCC. We compared OTS’s
    personal property inventory list from OTS’s Legacy system to
    OCC’s inventory of all its accountable property to determine
    whether all OTS accountable property was entered into OCC’s
    inventory system in accordance with Title III. To determine our
    sample size, we used a 90 percent confidence level with
    3 percent sample precision and an expected error rate of
    5 percent.

Consistent with our objective, we did not assess FRB’s, FDIC’s, or
OCC’s overall internal control or management control structure;
obtain data from their information systems; or assess the
effectiveness of their information system controls. We conducted
our fieldwork at FDIC in Arlington, Virginia, and at FRB and OCC in
Washington, DC, from April to August 2012.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




Status of the Transfer of Office of Thrift Supervision Functions   Page 14
Appendix 2
FRB Management Comments




Status of the Transfer of Office of Thrift Supervision Functions   Page 15
Appendix 3
OCC Management Comments




Status of the Transfer of Office of Thrift Supervision Functions   Page 16
Appendix 4
Major Contributors to This Report




Board of Governors of the Federal Reserve System OIG

Timothy Rogers, Senior OIG Manager
Jonathan Park, Auditor and Project Lead
Eric Barndt, Auditor

Federal Deposit Insurance Corporation OIG

A. Michael Stevens, Evaluations Manager
Travis Sumner, Auditor

Department of the Treasury OIG

Susan Barron, Audit Director
Amni Samson, Audit Manager
Alicia Bruce, Auditor-in-Charge
James Lisle, Referencer




Status of the Transfer of Office of Thrift Supervision Functions   Page 17
Appendix 5
Report Distribution




Board of Governors of the Federal Reserve System

    Chairman

Federal Deposit Insurance Corporation

    Acting Chairman

Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services




Status of the Transfer of Office of Thrift Supervision Functions   Page 18
